<html>
<title> - HOW PREPARED IS THE NATIONAL CAPITAL REGION FOR THE NEXT DISASTER</title>
<body><pre>[Senate Hearing 113-218]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-218
 
   HOW PREPARED IS THE NATIONAL CAPITAL REGION FOR THE NEXT DISASTER

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
 MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 31, 2013

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

82-746 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                   Richard J. Kessler, Staff Director
               Keith B. Ashdown, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk


SUBCOMMITTEE ON EMERGENCY MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND 
                        THE DISTRICT OF COLUMBIA

                      MARK BEGICH, Alaska Chairman
CARL LEVIN, Michigan                 RAND PAUL, Kentucky
MARK L. PRYOR, Arkansas              JOHN MCCAIN, Arizona
MARY L. LANDRIEU, Louisiana          ROB PORTMAN, Ohio
JON TESTER, Montana                  MICHAEL B. ENZI, Wyoming
HEIDI HEITKAMP, North Dakota
                     Pat McQuillan, Staff Director
                Brandon Booker, Minority Staff Director
                       Kelsey Stroud, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Begich...............................................     1

                               WITNESSES
                        Wednesday, July 31, 2013

Hon. Eleanor Holmes Norton, a Representative in Congress from the 
  District of Columbia...........................................     3
Christopher T. Geldart, Director, District of Columbia Homeland 
  Security and Emergency Management Agency.......................     6
Kenneth J. Mallette, Executive Director, Maryland Emergency 
  Management Agency..............................................     9
Barbara Donnellan, County Manager, Arlington County, Virginia, 
  and Chair, Chief Administrative Officers Homeland Security 
  Executive Committee, Metropolitan Washington Council of 
  Governments....................................................    10
James H. Schwartz, Fire Chief, Arlington County Fire Department..    12

                     Alphabetical List of Witnesses

Donnellan, Barbara:
    Testimony....................................................    10
    Prepared statement...........................................    41
Geldart, Christopher T.:
    Testimony....................................................     6
    Prepared statement...........................................    27
Mallette, Kenneth J.:
    Testimony....................................................     9
    Prepared statement...........................................    36
Norton, Hon. Eleanor:
    Testimony....................................................     3
Schwartz, James H.:
    Testimony....................................................    12
    Prepared statement...........................................    52

                                APPENDIX

Peter Crane, Counsel for Special Projects U.S. Nuclear Regulatory 
  Commission, prepared statement.................................    57
Questions and responses for the Record from:
    Mr. Geldart..................................................    62
    Mr. Mallette.................................................    64
    Ms. Donnellan................................................    68
    Mr. Schwartz.................................................    70


   HOW PREPARED IS THE NATIONAL CAPITAL REGION FOR THE NEXT DISASTER

                              ----------                              


                        WEDNESDAY, JULY 31, 2013

                               U.S. Senate,        
              Subcommittee on Emergency Management,        
                         Intergovernmental Relations,      
                          and the District of Columbia,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:02 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.
    Present: Senator Begich.

              OPENING STATEMENT OF SENATOR BEGICH

    Senator Begich. Thank you very much, Congresswoman. How are 
you? I apologize. Unlike the House, at times, you never have 
hard votes that people are confused on their positions, and so 
I apologize for being delayed. We are still in the middle of a 
vote as I speak right now. We are trying to get the right 
number of votes. I will leave it at that, and I apologize. We 
were down there working it.
    Let me make my comments. I will try to be quick and brief. 
And then I will turn it to the Congresswoman. I know you have 
been patiently waiting, so I appreciate that very much.
    The hearing, again, comes to order. Good afternoon. Welcome 
to this hearing of the Subcommittee on Emergency Management, 
Intergovernmental Relations, and the District of Columbia 
(EMDC).
    Today, I want to explore and examine the disaster response 
and coordination of the Federal, State, and local entities in 
the National Capital Region (NCR). We appreciate you all being 
here and your willingness to participate in this discussion. 
This is an important topic as we sit in our Nation's capital. 
We must remember Washington, DC. and the surrounding region is 
under near constant threat.
    I would like to take a brief moment to thank the emergency 
responders who work to keep the capital and surrounding region 
safe from harm. They deserve our thanks for their service. The 
sheer size of this metropolitan area, which includes 
significant national security infrastructure, multiple State 
and local governments, and broad scope of threats, makes this 
for a unique and complex coordination challenge.
    And to broaden this discussion to the national level, from 
the recent terrorist bombing at the Boston Marathon to natural 
disasters like the wildfires burning across the country, it is 
critical for the Federal Government to look proactively at our 
disaster response capabilities and coordination with State and 
local agencies instead of reactive once a disaster has 
occurred.
    Although the National Capital Region is unique in many 
ways, improving coordination and communication in emergency 
operations is a challenge that exists in most major 
metropolitan areas across this Nation. Specifically in my own 
home State of Alaska, we do a good job on Federal, State, and 
local coordination for disaster preparedness and being prepared 
for any type of disaster.
    The University of Alaska, for example, of Fairbanks, held 
successful emergency management exercises which tested 
emergency responders and Emergency Operations Centers' (EOCs) 
capabilities should the campus be a target of violence. 
Volunteers from nearby Eielson Air Force Base joined, a great 
example of civilian and Air Force members working together.
    In March, the Alaska National Guard's 103 Civilian Support 
Team held an exercise to test its ability to respond to a 
chemical, biological, radiological threat to Southeast Alaska's 
commercial fishing and agriculture industry. Many participants, 
including the Coast Guard, U.S. Army, Alaska Division of 
Homeland Security and Emergency Management, the Sitka Fire 
Department--this drill went very well and tested the 
interoperability among very diverse stakeholders.
    And Joint Base Elmendorf-Richardson (JBER), in my home town 
of Anchorage just last month did an exercise to prepare for 
incidents including aircraft malfunctions, injured personnel, 
or terrorist attacks were held. After the exercise, service 
members from different JBER entities were pleased with the 
successful operation and said it helps solidify relationships 
and remind people what exactly to do in an emergency.
    When it comes to emergencies, preparation is key, and 
response exercises in Alaska, the Lower 48 States, and the 
National Capital Region are essential to saving lives when 
disaster strikes. And throughout the disaster preparation 
exercise and mitigation process, we must continue to look for 
ways to streamline efforts to reduce costs, and I believe in 
this time of declining budgets and fiscal uncertainty, we must 
find more efficient ways of strengthening our interagency 
partnerships.
    It is no secret we can do more to modernize our approach to 
disaster response. I think we can all agree this will be better 
accomplished by coordinating all Federal, State, local, and 
private sector efforts to adequately support but not replace 
local operations.
    As a former mayor, I know that cities and local governments 
are well positioned to understand their individual concerns and 
vulnerabilities. I think you will agree the private sector 
should not be an afterthought, but should be involved in the 
local planning, training, and exercising that leads up to 
successful response and missions.
    I look forward to hearing from today's witnesses about the 
work in the Nation's Capital Region. This area is fortunate to 
have the immense resources of the city, State, and Federal 
Governments, but we know there are changes coming and more work 
to be done.
    Recently, the Federal Emergency Management Agency (FEMA) 
announced a proposal to move the National Capital Region's 
coordination office from FEMA headquarters here in Washington 
to FEMA Region 3, located in Philadelphia. As most of you 
probably know, this office is the key player in coordinating 
Federal entities through its chairmanship of the Joint Federal 
Committee. It has come to my attention that FEMA did not 
adequately consult with the stakeholders from the National 
Capital Region or congressional authorizers or appropriators 
before making this decision. I have some real concerns about 
this and hope, moving forward, that FEMA will be more 
responsive to my requests for information and hope they will 
work with the National Capital Region stakeholders to discuss 
unresolved concerns.
    Again, before we start, again, I want to thank all the 
folks that will be lining up, and let me first introduce 
Congresswoman Norton. Thank you very much for being here. We 
appreciate you for being very patient. I apologize.

 TESTIMONY OF THE HON. ELEANOR HOLMES NORTON, A REPRESENTATIVE 
           IN CONGRESS FROM THE DISTRICT OF COLUMBIA

    Ms. Holmes Norton. Well, no apology necessary, Mr. 
Chairman. I just hope you get the votes.
    Senator Begich. Well, we are one short. We are working on 
it.
    Ms. Holmes Norton. I want to thank you for this hearing and 
for inviting stakeholders from the region to come, in addition 
to me. I may be wrong, Mr. Chairman, but I do not believe that 
there has been a hearing on this office since the office was 
set up after September 11, 2001, when we created the Department 
of Homeland Security (DHS). So it is about time.
    Of course, all are aware of the unprecedented attack--and I 
am going to summarize my testimony and not read it to get 
through it quickly--the unprecedented attack on this region, on 
the Pentagon itself, and we believe but for the brave residents 
who took down the plane in Pennsylvania that the Capitol itself 
would have been attacked. The first time we were attacked on 
our own shores in this way, it shook the Congress in ways that 
it had never felt before.
    Since that time, I am very pleased that we have not been 
faced with an attack or anything close to it, and that has a 
lot to do with the way in which we have proceeded with homeland 
security. But this office was not set up just to prepare for, 
respond to terrorist attacks. It also, of course, has the same 
mission that the Department of Homeland Security has, to deal 
with natural disasters, and, Mr. Chairman, as you must know 
better than I, in this country, we have far more natural 
disasters than, I am pleased to say, we have terrorist attacks.
    Here, we have had, for example, since September 11, 2001, 
the so-called Snowmageddon, the worst snow anyone can recall--
--
    Senator Begich. I experienced that.
    Ms. Holmes Norton. You were here then.
    Senator Begich. Yes, I was here. [Laughter.]
    Ms. Holmes Norton. Not to mention the earthquake. Who ever 
heard of an earthquake in this region?
    The entire region is affected. It is a region without 
walls. So major disasters and terrorist attacks that occurred, 
for example, in Virginia essentially occurred in the District 
of Columbia. Our first responders were in Virginia. We have to 
prepare as if the attack occurred precisely in a particular 
jurisdiction.
    The region was picked out for a special office for a reason 
that should be clear. An attack on the region is an attack on 
the Nation itself because this region is the seat of the 
Federal Government, of all of its headquarters, agencies, and 
many secure officials. And it was felt that after going through 
9/11, the least we should do would be to coordinate and have an 
office to coordinate our preparedness, our response, our 
recovery from natural and, heaven forbid, terrorist disasters.
    Mr. Chairman, I must tell you, I was stunned to receive 
word from my staff that there were some officials from the 
Department of Homeland Security who wanted me to take a call 
about how they were about to move the office that was set up to 
protect the National Capital Region to another region 
altogether, to Philadelphia. I refused to take that call. I had 
not been consulted. For someone from the Federal Government to 
call and say, this is what we intend to do and we just thought 
we ought to let you know it did not seem to me to be the 
appropriate way to consult with Congress, and so I tried to 
find out whether other Members of Congress or stakeholders had 
been consulted and could not find that they had.
    So, I wrote to the appropriators, who I knew were 
considering the Homeland Security appropriation, and asked for 
language which they have now included in their appropriation, 
barring any kind of move, until the Congress is satisfied that 
any such move would not jeopardize the National Capital Region.
    I am very concerned, Mr. Chairman, of the failure of this 
office to follow the quite explicit mandate in the statute, for 
example, to coordinate the activities for disaster preparedness 
related to the entire region. We have not seen much evidence of 
that. And the Government Accountability Office (GAO) report, 
which I cite in my testimony, indicates that the office, the 
National Capital Region Coordinator Office, views its duty as 
to act as a coordinator for other Federal agencies instead of 
coordinating with the regional officials, the stakeholders, the 
people who run the counties and--there is only one big, large 
city, the District of Columbia--the ones who would have to 
respond to an attack. And the GAO makes a number of 
recommendations that I summarize in my testimony.
    Mr. Chairman, the statute is very clear, that we set up 
this office because we have a region that has a large city. It 
has small towns. It has huge counties, like Fairfax and 
Montgomery. It has land or terrain, vastly different. The whole 
point was not to tell a region what to do, but to coordinate 
with the stakeholders in the region so as to prepare for 
attacks. And we do not know how the office got off to 
coordinating with Federal agencies. We have no objection to 
that. Our objection is to the failure to follow the statute and 
the coordinating mandate of the statute.
    Mr. Chairman, in light of the recent attack in Boston, we 
could not be more serious about this office. The point of this 
office is to help the region expect the unexpected, and we are 
not going to be able to do this, we are not going to be able to 
share on these matters as we should if the coordinator is not 
coordinating. It is important that the coordinator have a 
direct relationship also with the Secretary. This is, after 
all, the National Capital Region.
    So I urge you, Mr. Chairman, and the members of this 
important Subcommittee to work with other Members of the House 
and Senate and the appropriators to ensure that the National 
Capital Region Office addresses the needs that Congress created 
it to meet and that it consults continually with Congress, and 
especially concerning any proposed changes.
    May I thank you, Mr. Chairman.
    Senator Begich. Congresswoman, thank you very much. And I 
will tell you, also as an appropriator--I sit on both here, in 
the Appropriations Committee and on the Subcommittee on 
Homeland Security, so you can rest assured.
    When I was mayor, the city's size, geographic size, was 
1,900 square miles, so you can imagine the many different areas 
we had kind of--it was unified, but it still had communities 
within that considered themselves small town cities, even 
though they were part of the same municipality. So we ran our 
Emergency Operations Center with all the different agencies and 
private sector in a coordinated manner, not a, ``this is what 
we want to do,'' because we had far-flung communities 50 miles 
away, almost, that were still in our city.
    So when you think about the logistics, and I am very 
sensitized to what you have just described in your testimony, 
and you can rest assured in the role I have here, but also the 
role I have in the Appropriations Committee as the language we 
have been able to put into the bill, we will be hearing your 
message clear.
    Ms. Holmes Norton. Well, thank you very much for that. I 
did not know you were a member of the Appropriations Committee, 
as well, Mr. Chairman, and I certainly appreciate having your 
watchful eye on both these Committees.
    I must say, this is a city 10 miles square, so when you 
tell me a city 50 miles----
    Senator Begich. Nineteen-hundred.
    Ms. Holmes Norton. But, I tell you, that is a city the size 
of this region.
    Senator Begich. Right.
    Ms. Holmes Norton. So I think you can understand exactly 
what I am talking about.
    Senator Begich. Very good. Again, Congresswoman, we greatly 
thank you for being patient, and your testimony, and your 
representation for the area here.
    You are right, I think this might be one of the first times 
this office has had a hearing. We have tried to be very active 
in this Committee around emergency preparedness, but also the 
D.C. region issues. As you know, we moved a couple judges out 
and a few other things because we want to become very active, 
but also a participant in making sure the D.C. region has what 
they need.
    And this is one area where I think, my former mayor roots 
are coming out. The fact that why local stakeholders are not 
included is a surprise to me. So that is why we wanted to have 
this discussion, and also talk about what you said very 
clearly, and that is it is not just about the terrorist 
attacks. We hope none happen. But it is the natural disasters 
that are more frequent, may they be storms, may they be 
earthquakes, snow, floods, the list is long, and we have 
experienced--since I have been here, I have to say, in 4\1/2\ 
years, I have seen more disasters here from snow and trees 
falling down and power out for a week in this region, and it is 
actually somewhat surprising to me.
    So, being Chair of this Committee, maybe I can at least 
lend a little bit of help and support.
    Ms. Holmes Norton. Thank you very much, Mr. Chairman.
    Senator Begich. Thank you very much, Congresswoman.
    Let me move to the next panel, if we could, and we will let 
the transition occur here. Staff will do their magic by putting 
names up there and then you will know exactly where you are 
sitting. Again, we want to thank all of you for being very 
patient, and I apologize because the issue that is on the floor 
is one that I am actively involved in, so I am getting e-mails 
in regards to our activity, so I apologize.
    As everyone sits down, I will do a quick introduction and 
then we will just kind of go down the row here, if that is OK.
    Christopher Geldart is the Director of the District of 
Columbia's Homeland Security and Emergency Management Agency, 
serving as the Homeland Security Advisor to the Mayor and 
Emergency Management Director. Again, we appreciate you being 
here today.
    We also have Kenneth Mallette, who is Executive Director of 
the Maryland Emergency Management Agency and is responsible for 
coordinating the State's response in any major emergency or 
disaster and coordinating the integration of Federal grant 
programs and others.
    Barbara Donnellan is the County Manager of Arlington 
County, Virginia, representing the Metropolitan Washington 
Council of Governments, where she serves as Chairwoman of the 
Chief Administrative Officers Homeland Security Executive 
Committee. You all have long titles.
    James Schwartz is the Fire Chief of the Arlington County 
Fire Department, a very short title and it is self-describing. 
Chief Schwartz has been in Arlington County for more than 27 
years.
    Let me, if I can, just start with you, Christopher, and if 
you can keep your testimony as tight as you can, and then we 
will go into some questions. But I appreciate you all being 
here today.

 TESTIMONY OF CHRISTOPHER T. GELDART,\1\ DIRECTOR, DISTRICT OF 
   COLUMBIA HOMELAND SECURITY AND EMERGENCY MANAGEMENT AGENCY

    Mr. Geldart. Thank you, sir. Good afternoon, Chairman 
Begich. I would like to thank you for the opportunity to appear 
before you today to discuss incident response coordination in 
the National Capital Region and how we work with public and 
private partners at all levels of government to enhance 
regional preparedness.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Geldart appears in the Appendix 
on page 27.
---------------------------------------------------------------------------
    Specifically, I would like to discuss the unique character 
of the NCR, as the Nation's Capital, home of hundreds of 
thousands of Federal employees, a hub for mass events like 
marathons, demonstrations, ceremonies, and Presidential 
Inaugurations, and a major target for manmade and natural 
disasters. I also appreciate the opportunity to highlight the 
critical nature of special event planning and our efforts in 
regional coordination in preparedness and response.
    I would like to add some context to the District of 
Columbia's role within the National Capital Region. The 68 
square miles of the District is home to approximately 632,000 
residents. It is the destination for 17 million visitors 
annually, the center of all three branches of government, and 
headquarters to 12 of the 15 executive cabinet level Federal 
agencies. The District of Columbia hosts a plethora of special 
events every year, and each is subject to a full and individual 
preparedness and response effort.
    I chair the Mayor's Special Events Task Group, which brings 
together all District public safety entities and relevant 
Federal agencies to address public safety and other logistical 
concerns surrounding special events. Annually, the group 
coordinates over 100 special events, including the Presidential 
Inaugurations. More than 800,000 people attended the 2013 
Presidential Inauguration, and in 2009, 1.2 million attendees 
set the record for largest attendance for any event in 
Washington, DC.'s history.
    We also know very well the kind of public safety plan that 
goes into marathon events, like the Boston Marathon. The 
District holds multiple races each year, including the Marine 
Corps Marathon, the Nike Women's Half Marathon, and the 
Nation's Triathlon.
    In addition to our unique character as a special events 
hub, the District of Columbia is a nucleus for Federal 
employees. More than 300,000 Federal employees work in the 
District of Columbia every day. This character creates a 
distinct synergy between the Federal Government as an employer 
and the emergency planning and response efforts we do as a 
city. Because of this synergy, the District of Columbia must 
maintain a close working relationship and continuous link with 
Federal entities, such as the Office of Personnel Management 
(OPM), the Department of Homeland Security, and the Federal 
Emergency Management Agency, in order to coordinate information 
such as governmental closings, liberal leave, early dismissals, 
shelter in place, and evacuation.
    The region has developed people, processes, and tools 
necessary to effect a coordinated incident response. For threat 
and warning, the region has invested in four Fusion Centers, 
the Washington Region Threat Analysis Center, the Maryland 
Coordination Analysis Center, the NCR Intelligence Center, and 
the Virginia Fusion Center. The Directors of these Fusion 
Centers have regular meetings to share pertinent information, 
best practices, and joint intelligence projects. We closely 
coordinate joint threat assessments for inauguration planning, 
Fourth of July, and any special events that warrant 
collaboration.
    For situational awareness, the District's Joint All Hazards 
Operations Center housed at the District of Columbia Homeland 
Security and Emergency Management Agency, is a 24/7 Emergency 
Operations Center that facilitates the District and assists in 
coordinating regional situational awareness. During an 
incident, the NCR, through the region's Emergency Managers, 
uses the Incident Command System as a primary means for 
coordinating responses from the Incident Commander on the 
ground through the region's EOCs.
    The region has also developed inherent capabilities for 
interoperable communications, both data and voice, which 
enables a highly coordinated response amongst jurisdictions. In 
addition, the region performs mutual aid operations on a daily 
basis and has the means to scale mutual aid for larger 
disasters. The NCR has developed unique capabilities, including 
nine Type 1 bomb squads, swift water rescue, and HAZMAT teams 
and associated equipment. The region has also outfitted every 
firefighter in the NCR with two sets of personal protective 
equipment.
    The region has developed the capability to track patients 
throughout an incident, from initial triage all the way through 
unification to their families, and to assist in managing 
hospital bed numbers. The region is also working on the ability 
to link our Computer Aided Dispatch systems.
    The region conducts numerous training and exercises to 
ensure these capabilities can perform to standard, health and 
medical point of distribution exercises, Incident Command 
System drills, functional exercises, and communication 
training. We recently conducted a 4-day exercise that tested 
our response capabilities in the event of a ten-kiloton 
improvised nuclear device detonation. This exercise tested the 
close coordination amongst regional partners at the State, 
local, and Federal level.
    In addition to the people, process, and tools for 
preparedness and response to be effective, the NCR also 
requires unique administrative and collaborative efforts. Two 
critical entities in this are the Metropolitan Washington 
Council of Governments and the National Capital Region 
Coordination Office, each with distinct yet complementary 
functions. the Metropolitan Washington Council of Governments 
(MWCOG), serves as a convener of the participating NCR 
governance bodies and the responders that work for them across 
the region.
    MWCOG has a key role in providing information sharing and 
coordination during incident response, convening conference 
calls for senior leaders across the region. For example, MWCOG 
conducts snow calls prior to predicted snowstorms to allow the 
region's leadership to discuss potential action plans and 
develop clear regional understanding of response needs. MWCOG 
is a liaison for these calls, not an agenda setter or 
decisionmaker, but it is a pivotal role.
    In the past, the National Capital Region Coordination 
Office has provided the key connection and coordination point 
with the local Federal entities in the NCR, those agencies with 
buildings and employees within the National Capital Region 
which would be affected by a natural or manmade disaster in the 
region. The office has a pivotal role like MWCOG in 
coordination during a response. For example, during a number of 
real world and planned special events, the NCRC Director has 
convened key DHS and FEMA officials with Regional Homeland 
Security advisors and Emergency Management Directors, 
Governors, and mayors to share information and action plans. 
The NCRC's Watch Desk within the National Watch Center is 
pivotal and singular in providing Federal agencies and their 
Emergency Operations Centers with information from the Regional 
Operations Centers.
    Having held positions in the NCR for the last decade, and 
as a current Homeland Security Advisor and Emergency Management 
Director for the District of Columbia, I believe that the 
region has come a long way in producing the capabilities and 
capacity to effectively prepare for, respond to, and recover 
from events that could affect our region. Our unique region has 
formed organizational structures that, though still developing, 
have enabled a District, a State, and a Commonwealth, and three 
branches of Federal Government to plan, train, and respond 
together in an effective manner.
    From an emergency management perspective, the NCR is one of 
the most challenging regions in the country. The region will 
continue to have challenges going forward, and as the Director 
of DC's Emergency Management Agency, I feel confident in the 
relationships and professionalism of my partners from all 
levels of government in responding to and meeting those 
challenges.
    Senator Begich. Thank you very much. Kenneth.

   TESTIMONY OF KENNETH J. MALLETTE,\1\ EXECUTIVE DIRECTOR, 
              MARYLAND EMERGENCY MANAGEMENT AGENCY

    Mr. Mallette. Thank you, Chairman, and on behalf of 
Governor Martin O'Malley, I want to thank you for the 
opportunity to share my thoughts regarding preparedness and 
response capabilities in the NCR.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mallette appears in the Appendix 
on page 36.
---------------------------------------------------------------------------
    As you indicated earlier, the Maryland Emergency Management 
Agency is the lead agency in our State for coordinating 
preparedness efforts and responses to major events. Our local 
police, fire, and emergency medical services are often the 
first to respond to emergencies, but when their resources are 
exhausted and they need additional capabilities, they turn to 
the Maryland Emergency Management Agency for assistance.
    Maryland works very hard every day with local and regional 
response partners to strengthen the NCR's ability to respond. I 
serve on the region's Senior Policy Group, along with Homeland 
Security Advisors and the heads of emergency management for 
Maryland, Virginia, and my counterpart, the District of 
Columbia, as well as the Director of FEMA's Office of the 
National Capital Region Coordinator. This group meets regularly 
to identify gaps in the region's response capabilities, sets 
targets and goals, evaluates the progress and participates in 
preparedness exercises and training.
    As an Emergency Manager, situational awareness is among our 
most important responsibilities. Thanks to strategic 
investments of Homeland Security grants within the region, the 
response agencies are able to share real-time information on 
emergency response activities through our Web-based emergency 
management software system. We monitor the region's roadway 
conditions using a system known as the Regional Integrated 
Transportation Information System (RITIS). Our public health 
responders use a biosurveillance tool called ESSENCE to detect 
the presence of biological agents and other infectious public 
health threats.
    Every jurisdiction in the NCR has systems in place to push 
emergency information to the public through text messages, 
social media, and traditional public communications means.
    The NCR jurisdictions also recognize the importance of 
preparedness training and exercises to ensure that first 
responders and executive leaders are ready when events and 
disasters occur. Last year, Maryland Emergency Management 
Agency helped lead a series of workshops throughout the NCR to 
identify specific emergency level response training and 
preparedness needs. The resulting training and exercise plan 
will help us build the specialized skills needed to respond to 
terrorist attacks or natural disasters in the future.
    Active engagement with Federal agencies in the NCR is 
critical to the region's ability to effectively respond. As you 
know, for more than 10 years, FEMA's Office of the National 
Capital Region has served as a single point of contact for the 
NCR local emergency managers to help them coordinate response 
plans with the hundreds of Federal departments, agencies, and 
offices that operate in their jurisdictions, including at least 
23 in Maryland.
    As home to the Nation's Capital and many Federal assets 
that are critical to maintaining continuity of government, the 
NCR should continue to have access to FEMA resources that are 
dedicated to meeting the region's preparedness needs. Although 
I am pleased that the Office of the National Capital Region 
will continue to have a presence in the region, I believe that 
the Office will be better able to serve the NCR's jurisdictions 
by being able to report to and draw resources from the highest 
levels within FEMA headquarters.
    It is not difficult to imagine the attacks of this year's 
Boston Marathon happening at any one of the major public events 
that draw thousands of participants to the National Mall each 
year. The tools and capabilities that Boston effectively 
deployed in response to the bombing--interoperable voice 
systems, specialized bomb and the Chemical, Biological, 
Radiological, Nuclear and Explosives (CBRNE) detection 
equipment, and information sharing platforms--are similar to 
the response capabilities that the NCR has invested its 
resources for the past 10 years.
    Although we can never predict with complete certainty how 
emergency events will unfold, the NCR is well positioned for 
responding effectively to notice and no-notice events.
    Mr. Chairman, again, thank you for allowing me to testify.
    Senator Begich. Thank you very much, Kenneth. Barbara.

 TESTIMONY OF BARBARA DONNELLAN,\1\ COUNTY MANAGER, ARLINGTON 
  COUNTY, VIRGINIA, AND CHAIR, CHIEF ADMINISTRATIVE OFFICERS 
HOMELAND SECURITY EXECUTIVE COMMITTEE, METROPOLITAN WASHINGTON 
                     COUNCIL OF GOVERNMENTS

    Ms. Donnellan. Good afternoon, Chairman Begich, and thank 
you for the opportunity to testify this afternoon.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Donnellan appears in the Appendix 
on page 41.
---------------------------------------------------------------------------
    As you have stated, for the last 2 years, I have served as 
Chair of the Chief Administrative Officers Homeland Security 
Executive Committee at the Metropolitan Washington Council of 
Governments, COG. In this role, I have worked closely with the 
Senior Policy Group to manage homeland security programs in the 
National Capital Region. I am very pleased to be here with my 
colleagues from the region because our homeland security 
coordination work is detailed and continues throughout the 
year. All of us have become not only colleagues, but good 
friends. We know these relationships are critical to enhancing 
the safety of this region.
    The terrorist attacks of 2001 required us to reassess how 
we were working together to address the security needs of the 
NCR. There is no doubt that as the seat of Federal Government, 
we will continue to be a high-priority target for those who 
seek to do harm.
    Additionally, the unique nature of the NCR, which spans two 
States, the District of Columbia, 14 local jurisdictions, and 
nearly 240 Federal agencies, requires the full integration of 
Federal, State, regional, and local efforts. To accomplish this 
integration, we established a regional governance structure to 
coordinate planning, emergency management operations, and 
funding across the NCR. Importantly, this structure has also 
provided for enhanced coordination with the private and 
nonprofit sectors. They are important partners in our 
preparation efforts.
    Working through COG and in coordination with the Office of 
National Capital Regional Coordination (ONCRC), we have 
developed one of the most robust regional homeland security 
programs in the Nation. Guiding our work is the NCR Homeland 
Security Strategic Plan. Initially, it was developed in 2006 
and it was updated in 2010. It provides the strategic framework 
for our efforts and our investments.
    The NCR's Strategic Plan identifies four goals. One, to 
ensure the interoperability of communication capabilities. Two, 
to enhance information sharing and situational awareness. 
Three, to enhance critical infrastructure protection. And four, 
to ensure the development and maintenance of regional core 
capabilities.
    Flowing from this Strategic Plan, we have developed an NCR 
Investment Plan to accomplish our strategic goals. We have an 
Annual Work Plan to guide our investments, and we are 
continuing to work on a Performance Measurement Plan to monitor 
and evaluate our progress.
    After every major event, not only across this country but, 
indeed, throughout the world, we are constantly reevaluating 
our plans and our capabilities to assess our ability to 
prevent, respond to the threats that we face each day. Each 
event provides us with an opportunity to ask the important 
question: Are we prepared for this type of an event, and how 
would we respond to it if it occurred? This evaluation includes 
not only manmade disasters and events, but natural ones, as 
well. We in the NCR have seen our share of those in the last 
few years, as was mentioned--the earthquake in August 2011, 
followed by Hurricane Irene several weeks later, the derecho, 
and then Hurricane Sandy. These events also teach us important 
lessons and help us to identify areas where additional 
attention is required, particularly in the area of critical 
infrastructure protection.
    I want to thank Congress for recognizing the Federal role 
required for our region and for providing Federal funding to 
support the significant investment in regional emergency 
management programs that have been vital to our work. This 
funding has been critical as we seek to address the unique 
homeland security and emergency management needs of our region. 
You continue to direct support to the essentials for 
maintaining and continuously improving the readiness of the 
NCR.
    An issue of considerable concern to the local jurisdictions 
in the region is the future of the ONCRC and FEMA's 
announcement to reorganize the Office program delivery and 
communication functions. We understand that FEMA has agreed to 
put the plan on hold in order to receive input from its 
regional partners. We look forward to this opportunity to work 
together to develop the best design for the ONCRC to meet the 
goals of this region, consistent with the congressional intent.
    In closing, I would like to emphasize again that because of 
planning, coordination, and exercises we have sponsored, as 
well as our cooperation with the Federal, State, and community 
partners, the NCR is significantly better prepared for the next 
emergency and all other threats and hazards that may come our 
way.
    Again, I would like to thank you for holding this hearing 
today and for your continued support for the NCR. We look 
forward to continuing work with this Committee and the Congress 
to meet the homeland security needs of our region. I am very 
pleased to answer any questions.
    Senator Begich. Thank you very much.
    Thank you again, all of you, for being here today. James.

TESTIMONY OF JAMES H. SCHWARTZ,\1\ FIRE CHIEF, ARLINGTON COUNTY 
          FIRE DEPARTMENT, ARLINGTON COUNTY, VIRGINIA

    Mr. Schwartz. Thank you, Mr. Chairman, and I would like to 
take the opportunity to thank you for your interest and 
attention to preparedness efforts in the National Capital 
Region. I also appreciate the opportunity to be here today 
representing the first responders of the National Capital 
Region as we work to secure the region for our citizens, 
businesses, and visitors.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Schwartz appears in the Appendix 
on page 52.
---------------------------------------------------------------------------
    I would like to note, as you have heard from some of my 
colleagues, that the region has a very special set of working 
relationships among the different disciplines and different 
governments here. We use those relationships every day of the 
week, and it is those relationships that have been and will be 
leveraged for the next event that we might experience here, 
whether it be a Boston-like attack, a coastal storm, or 
something more catastrophic.
    The National Capital Region is well versed in managing 
large-scale events, from those that occur without warning to 
those that involve the coordination of dozens or even hundreds 
of agencies in support of national special security events.
    On September 11, 2001, the Arlington County Fire Department 
was the lead agency for the response to the attack on the 
Pentagon. I served as the Incident Commander in a unified 
command effort recognized nationally and internationally as a 
model of intergovernmental and interdisciplinary collaboration. 
The success of that response was the result of many lessons 
learned from previous tragedies in the region, including the 
importance of mutual aid, the need for joint planning, and the 
use of the Incident Command System, which after September 11, 
2001, became national doctrine.
    Since September 11, 2001, the NCR has developed hundreds of 
new regional capabilities, most of which have been enhancements 
to the foundation of resources and services funded by local 
governments throughout the region. Allow me to provide a few 
examples of ways the NCR has improved its preparedness for a 
host of hazards.
    With regard to mass casualty incidents, we have deployed a 
total of 23 Mass Casualty Response Units, each carrying 
supplies for between 50 and 100 victims. We have also deployed 
10 ambulance buses throughout the region. These buses are 
capable of carrying 20 non-ambulatory or 25 ambulatory 
patients. And all of these resources are used in the region 
through a Mass Casualty Incident Plan applied the same way in 
each of the jurisdictions.
    The region has also implemented, or is in the process of 
implementing, a patient tracking system that, as you heard from 
Mr. Geldart, will assist in the distribution of patients and 
the tracking of those patients from incident scene all the way 
through medical care and assist in the family reunification 
process.
    The region has embarked on the implementation of Tactical 
Emergency Casualty Care (TECC), which seizes on the lessons of 
combat medicine for trauma care learned in the fields of 
Afghanistan and Iraq and adapts them for civilian use. TECC has 
already been taught to several fire and EMS departments in the 
region, and as we speak, thousands of law enforcement officers 
are being taught the techniques and being equipped with 
individual kits that can be used when they or a fellow officer 
are injured.
    In a further effort to prepare for the unthinkable, we have 
studied the 2008 Mumbai attack and some departments have 
developed a capability for EMS personnel to enter an area where 
casualties from an active shooter may lay before the gunman is 
subdued. This capability includes the use of TECC and the 
extraction of victims to a casualty collection point where more 
advanced medical procedures can be provided out of harm's way.
    Again, as you heard from Mr. Geldart, the NCR is the home 
to seven local and two State bomb teams. Unique among this 
effort in the National Capital Region is that these teams are 
highly integrated. They are interoperable, with standardized 
equipment and procedures, and they provide backup to each other 
through the region's system of mutual aid.
    While these and many other resource capabilities represent 
significant capacity, it is important to observe that these 
discrete capabilities are useful only when deployed under an 
effective Incident Management System. The region's successful 
response to the 9/11 attacks was largely due to two factors: 
The Incident Command System was already well understood in the 
region and practiced daily for smaller incidents, and key 
leaders, especially at the operational levels, had grown to 
know and trust each other. This continues today.
    In closing, I would like to emphasize that the NCR has made 
significant improvements to its preparedness efforts, 
especially over the last 12 years. It is worth acknowledging 
that there is more to be done, and each investment that we make 
must be regularly evaluated for its currency, and we must 
continue to ensure that the capabilities that we have developed 
are well maintained and can be properly executed when 
necessary. The strength of the NCR continues to be the strong 
relationships that have existed and continue to be fostered in 
recognition of the special nature of our region.
    Again, I want to take this opportunity to thank you for 
your interest on this topic today and I look forward to 
answering your questions.
    Senator Begich. Thank you again, all of you, for your 
testimony. I have a few questions, but I again thank you for 
doing this.
    Let me, if I can, maybe--this is kind of a general 
question, maybe for any of you to answer. I know when I was 
mayor, we did something that I thought was very successful and 
actually kind of increased our capacity of emergency response, 
and I think you have all identified it is not just terrorists 
but it is all the other pieces that are somewhat more frequent, 
which we do not like, but the fact is they are more frequent, 
these natural disasters.
    We set out on a course to train every single one of our 
municipal employees in emergency preparedness in the sense of 
cardiopulmonary resuscitation (CPR) training and some other 
additional training. CPR was the core, and then if someone 
wanted to advance up, we would do that. We had 3,000 employees, 
and the goal was that we could turn the dial very quickly for 
those that were available to at least have some training that 
we did, and CPR was the first, to make sure that everyone had 
that training.
    In any of your regions, are you experimenting with anything 
like this, or have done something like this? I just think about 
how many government workers live in this region, and when there 
is a disaster--one I remember distinctly is the snow disaster, 
when people just were stuck on the freeway and some people just 
got out of their cars. To me, that was crazy, but that was what 
people did. But, any thought on that, how to activate so 
everyone is kind of a partner, but not one you can call on them 
when you want? Does anyone want to comment on that?
    Mr. Geldart. Sure. I will take a stab at it.
    Senator Begich. OK, maybe start. Sure.
    Mr. Geldart. So, Mr. Chairman, in the District of Columbia, 
we have 32,000 employees at the District Government level. Many 
of them do CPR training, and our D.C. Fire and Emergency 
Medical Service is going around and doing that and we are 
rolling it out even more. So that is the start point. We also 
have many that are trained to come work within our ICS 
structure, so within the EOC and other areas to help out, as 
well.
    We do specialty bomb training and situational awareness 
training, just general awareness, because our Department of 
Public Works (DPW) crews, our Department of Transportation 
(DOT), Traffic Control Officers (TCOs), are out on the street 
all the time when we are doing special events. So we utilize, 
and Cathy Lanier, our Chief of Police, pushes that out there to 
them, to have a watchful eye.
    Senator Begich. Got you.
    Mr. Geldart. Is there something that does not look right? 
What does a suspicious package look like? What does a 
suspicious individual look like? And they really become eyes 
and ears for the Metropolitan Police Department in that sense.
    And it is a great point you bring up, though, sir. We had 
Joe Bruno and Kelly McKinney come down from New York City to 
brief the region on the after-action from Hurricane Sandy and 
what they did well and what they think they could have improved 
on, and one of the things they mentioned in there was the 
amount of training, and I think New York is something crazy 
like 300,000 employees----
    Senator Begich. It is unbelievable.
    Mr. Geldart [continuing]. Or something like that, but all 
of them are, to a certain extent, trained, but also become 
volunteer workers, if you want to call it that, emergency 
workers----
    Senator Begich. Right.
    Mr. Geldart [continuing]. For the city when something bad 
happens. So it is a very good point and I think that is being 
picked up by a lot of the municipalities right now.
    Senator Begich. Very good.
    Any additional comments? Barbara.
    Ms. Donnellan. Just a couple thoughts. That is a very 
ambitious goal, to get the CPR for that. We have close to 3,700 
employees, as well, and I would say that we do not do it to 
that degree, but what my staff is involved in is incident 
command.
    Senator Begich. Mm-hmm.
    Ms. Donnellan. So we do train them so that when we set up 
for an emergency, I have people from all walks of life----
    Senator Begich. All the different agencies are involved.
    Ms. Donnellan [continuing]. Every single agency involved, 
and then they have to retrain different teams----
    Senator Begich. Right.
    Ms. Donnellan [continuing]. Because you need more than 24 
hours if it should continue on.
    Senator Begich. Right.
    Ms. Donnellan. So we do that. But in addition to that, we 
have a robust volunteer program where we train the community as 
the Community Emergency Response Team (CERT), the citizens in 
the community to help us to go out and do that.
    Senator Begich. Yes.
    Ms. Donnellan. And the other thing is, we are doing more of 
this, and Jim can talk to what he has just mentioned to me 
about teachers, but another way of thinking about it is the 
active shooter issue. Houston had done an incredible tape on 
how to respond to active shooter in a workplace----
    Senator Begich. Mm-hmm.
    Ms. Donnellan [continuing]. And we modified that tape, 
because it is a little bit scary, and put a nice introduction 
to it to say, unfortunately, we live in these times and it is 
important for you to know this information. We hope it never 
happens. And I was anxious about putting that out to the entire 
workforce, but I did. And when I got responses back, they were 
thrilled to have that knowledge on how to respond. And 
sometimes it is just the training and the thinking that goes 
into the beforehand that helps employees think about things and 
how they can help the community, as well.
    Senator Begich. That is great. We actually have a bill that 
I have introduced--the President has taken it up in one of his 
packages--on mental health first aid for, basically, 
individuals within educational environments--universities, K 
through 12, post-secondary--and the whole goal is that they get 
the skills. I actually took this idea from what they do in 
Memphis, I think it is Crisis Intervention Team (CIT) where we 
got the idea to train our police officers on emergency response 
when someone has a mental illness, because you may have a 
different kind of response. And in the school setting----
    Ms. Donnellan. Absolutely.
    Senator Begich [continuing]. It is a whole different 
situation. And the idea is to deaccelerate the situation as 
quickly as possible, protect the people that are there. And the 
idea of this mental health first aid, which has been endorsed 
by many of the mental health groups, the White House has picked 
up on it--we put some funding, actually, in the appropriations 
bill this cycle to try to push that out to the schools to give 
some tools. And it is not to say, here is how it should be 
done, but here are some resources to schools to prepare your 
teachers or others not to be the manager of the incident, but 
understand how to deal with an incident when it may occur in 
your classroom or in your setting. And it is for police 
officers, first responders, educational institutions. And so it 
is very interesting that you are doing that.
    Ms. Donnellan. Yes.
    Senator Begich. Any other quick comment on that? Kenneth, 
and then I am going to jump to another couple questions.
    Mr. Mallette. Yes, Mr. Chairman. Just one thing is that, as 
you are familiar with, the Community Emergency Response Team 
program, this is the last year that FEMA will be funding that 
program, and it has been a very successful program, not only 
for local jurisdictions, but many----
    Senator Begich. Can I interrupt you? How long has FEMA been 
funding that, do you recall right offhand?
    Mr. Mallette. Since 2003, I think.
    Senator Begich. Two-thousand-three. And this is their last 
fiscal year----
    Mr. Mallette. Fiscal year.
    Senator Begich. This Fiscal Year we are in right now----
    Mr. Mallette. Is the last year that they are going to fund 
that program. But we have really taken that program to not only 
the public sector, but also the private sector. Many large 
businesses are putting together Community Emergency Response 
Teams. And so it has been a very effective program and we are 
going to try to use some State and local funding. But that is 
one of the most successful programs. And also COOP, Continuity 
of Operations, where we are teaching people to take on not only 
their primary role, but also a secondary role during emergency 
response.
    Senator Begich. Would you all agree that funding that FEMA 
has utilized for the CERT teams have been helpful?
    Mr. Schwartz. Very much so.
    Ms. Donnellan. Yes.
    Senator Begich. Very much so. I mean, it is always--with 
our tight budgets--everyone has them--but it seems like the 
limited amount of money that goes through that program augments 
what you are doing locally, the private sector as well as 
State. So you think that money is a helpful piece of the 
equation.
    Mr. Mallette. Absolutely.
    Mr. Schwartz. Yes.
    Senator Begich. Let me ask some specific ones, and then let 
me kind of focus for a minute on Mr. Geldart and the District 
of Columbia, and that is, tell me--you kind of mentioned it, 
but I want to get more specific here--with the utility folks, 
do you do joint training? They are always the ones we hear 
about on the radio, not necessarily in D.C., I would say in 
Maryland and Virginia. But do you have joint training exercises 
for how they can respond in case of a disaster, natural and/or 
manmade, terrorist? Any----
    Mr. Geldart. Yes, sir. So, Mr. Chairman, we started post 
the derecho, under the Mayor's leadership, did a task force 
that looked at how do we start to deal with the issue, 
specifically with inside the District of Columbia, of power 
reliability and resiliency for storms and for other things. 
That has run its course. We have a report that came out from 
that we are working with the Potomac Electric Power Company 
(PEPCO) on. They are our sole provider for power inside the 
District of Columbia.
    However, we started a process off of that in working with 
the power companies that started back about a year ago now, 
where we sat down with the operations folks on the power 
company side, those that do restoration, those that bring in 
the crews when we have large-scale disasters and large-scale 
outages, and we sat down with them to start the dialogue to 
say, look, we are missing something here between the emergency 
management folks, those that are working response on the 
government side, and you all on the private sector side. 
Something is not happening, because we can be doing a better 
job.
    And so we sat down with them and we came up with a couple 
of areas where we thought it could really make some 
improvements, in which we had a discussion-based exercise held 
at the Metropolitan Washington Council of Governments with all 
of not only the members here within the NCR, but then also 
actually going up the 95 corridor all the way up to New York 
City, because the power providers----
    Senator Begich. Right. It is the whole grid.
    Mr. Geldart [continuing]. Do not know those kind of 
boundaries. Right. So we took it in a true regional context, 
the I-95 Corridor Region, and sat down with them and basically 
came up with two areas. One involves fleet movement for mutual 
aid response from within the power companies themselves.
    Senator Begich. Mm-hmm.
    Mr. Geldart. So, wherever they get trucks from and crews 
from and things like that, that will come in to do the repairs.
    Senator Begich. Got you.
    Mr. Geldart. How do we help them, from a public sector 
perspective, get their people here quicker--weigh stations, 
toll booths, all those kinds of things they have to traverse 
through the region to get to the most affected areas. So how 
can we, as the public sector, those that own those toll booths 
and those weigh stations and other things, how can we help them 
move quicker? That was one thing we are taking on.
    The second one was the power companies provide an Emergency 
Liaison Officer to us in our Emergency Operations Centers. They 
should be able to give us much better information on estimated 
time for recovery, when we can be back up, what exactly is 
down, and a better coordination of--we do well on this, but a 
better coordination of what are our key, most important things 
we need restored and when, so our prioritization list.
    Senator Begich. I just have an additional question on the 
utility one, and then I have just a thought on snow, and I am 
going to then move down.
    Mr. Geldart. Yes, sir.
    Senator Begich. But on the issue on the utility, you folks 
in the District of Columbia are now doing underground--you are 
on some pathway to do undergrounding, if I recall this right. 
Is that----
    Mr. Geldart. Yes, sir.
    Senator Begich. And I know in Anchorage, what we did many 
years ago required the utility, which they get cost recovery 
through their rate structure--I think it is 4 percent a year 
for our utility lines--because we were finding with heavy snow 
or weather conditions--icing, mostly----
    Mr. Geldart. Right.
    Senator Begich [continuing]. That the lines could come down 
instantaneously or create other situations. We have been very 
successful in that, and new construction----
    Mr. Geldart. Right.
    Senator Begich [continuing]. Is all required underground.
    Mr. Geldart. Absolutely.
    Senator Begich. Can you just give me a little flash point 
on that----
    Mr. Geldart. Sure.
    Senator Begich [continuing]. And what is going on there.
    Mr. Geldart. And that was a very big part of the 
conversation, and there is a full plan within the----
    Senator Begich. Utility companies hate it, because it costs 
them money. I know that, but----
    Mr. Geldart. They were actually----
    Senator Begich. They understand the repairs are better, to 
have them not have to go out there in freezing cold weather, 
so--it is a mixed view, I know, sometimes.
    Mr. Geldart. Sure. The bigger issue really is, it is easier 
for them to run a line and put a new pole up than to dig it 
underground.
    Senator Begich. Right.
    Mr. Geldart. So you will have less, potentially, frequent 
power outages, but potentially longer time for recovery because 
they have to find where it is underground. So there is a 
tradeoff and all.
    Senator Begich. Except, I would say, the new, and they call 
them Supervisory Control and Data Acquisition (SCADA) systems--
--
    Mr. Geldart. Yes.
    Senator Begich. Unbelievable technology.
    Mr. Geldart. Yes, sir.
    Senator Begich. And today, they can track them--I know we 
do this, because we have to----
    Mr. Geldart. Right.
    Senator Begich [continuing]. With weather conditions. Our 
depths are probably much deeper----
    Mr. Geldart. Right.
    Senator Begich [continuing]. There than where we have to 
plant those lines here, water, sewer, and others.
    Mr. Geldart. Right.
    Senator Begich. The SCADA systems are unbelievable now.
    Mr. Geldart. And that is a huge help----
    Senator Begich. So, is that moving along at----
    Mr. Geldart. Yes, it is.
    Senator Begich. So you feel like there is acceptance? 
Everyone is participating? They recognize----
    Mr. Geldart. Yes, sir.
    Senator Begich [continuing]. This is a long-term value.
    Mr. Geldart. And so there is a long-term plan that has come 
out of that and how we are going to do it and where do we start 
to do undergrounding, and then took into account those areas 
that you start to do that work on, when you start to do that, 
where does it become fragile and where should we work on first, 
vice second, in case of emergencies and things like that, so--
--
    Senator Begich. Right.
    Mr. Geldart [continuing]. We have looked at that.
    Senator Begich. Let me throw out one thought and then I am 
going to go down the line here, and I am going to watch our 
time. And again, I apologize. We started late. This is just 
one--coming from snow--I never thought I would actually be in 
this position to be able to say this, so you are here, I am 
here. This is a great opportunity.
    So, I experienced a snow--it is very unique how you manage 
snow here, not necessarily you, but----
    Mr. Geldart. Right.
    Senator Begich. Let me just pause there for everyone's own 
thought on that. But it always surprises me, when we had that 
big snowfall, and we had a couple others, but that one big one, 
the way snow removal occurs, which causes more problems for 
emergency vehicles and other things. And it seems logical, 
because we--and I say ``we'' collectively in the District 
here--if there is a snow coming, we send people home. I mean, 
basically, everyone starts to abandon the city. And what is 
unique about that is every government parking lot is now empty.
    Why do we not have a plan that says, for citizens, like 
Zone 6, Zone 3, whatever, these are your designated parking 
locations in a snow disaster. So, they are empty. Do not park 
on the street. You will park in this area, because mostly it is 
in this dense zone here. So, then the snow removal can move 
much quicker, because in some cases, it took a week because you 
had to wait for it to melt.
    Mr. Geldart. Sure.
    Senator Begich. And every day, I walked by these empty 
parking lots and it just made no sense. Is that something--
because those are federally controlled--is there something we 
can help you with, with the General Services Administration 
(GSA)? It just seems those massive parking lots, and they are 
empty and everyone is jammed up on the--I call it the war for 
the parking spaces, because you shovel it all out----
    Mr. Geldart. That is right.
    Senator Begich [continuing]. And then you have someone 
standing out there----
    Mr. Geldart. That is right.
    Senator Begich [continuing]. Protecting your parking space 
because you know someone might sneak in. It is the most amazing 
thing. But then trash stops getting picked up. Emergency 
vehicles become very problematic.
    Mr. Geldart. Sure.
    Senator Begich. Is there a thought there, or are you 
thinking of that, or is there something we can help you with 
our friends at GSA that sometimes I know is--we have to have 
long conversations at times with them.
    Mr. Geldart. Sure, and----
    Senator Begich. I am being polite. Any thought there?
    Mr. Geldart. Sure. That is--using the Federal parking lots 
would be a great idea, either for the cars or the snow, either 
way you want to do that.
    Senator Begich. Right. Yes.
    Mr. Geldart. But it really does come down to, those are not 
our areas.
    Senator Begich. OK.
    Mr. Geldart. And we cannot authorize----
    Senator Begich. But is it an asset that, if you are in this 
region----
    Mr. Geldart. That would be great.
    Senator Begich. Because I am just thinking of all those 
cars, they could all park in there. And I saw an emergency 
vehicle. I said, there is no way if someone had a heart attack, 
I mean, your vehicles, your paramedics, or your fire truck, 
forget it. Paramedic, maybe----
    Mr. Geldart. Right.
    Senator Begich [continuing]. Because of the dimension of 
the vehicle. But forget a fire truck.
    Mr. Geldart. We have actually--there has been a lot of work 
that has been done since that large snowfall in the way in 
which we do snow removal throughout the city. Bill Hallin, who 
runs our Department of Public Works, has done a lot of good 
work with his folks. We actually have a--they call him the Snow 
Czar--a gentleman that is what his job is.
    Senator Begich. Right.
    Mr. Geldart. And he is actually up in at Emergency 
Management Institute (EMI), teaching something on that right 
now to other cities, on some of the changes that they have 
done. So I think they have looked at that. The thought of using 
Federal parking lots----
    Senator Begich. And it is just temporary. You move the cars 
off----
    Mr. Geldart. Sure.
    Senator Begich. You are there until your street is cleared. 
Then you can go back and park there.
    Mr. Geldart. Sure, and the one thing that I have learned in 
being in the job here and being in the region, getting the 
availability to use the parking lots may become a lot easier 
than convincing people that they need to park there instead of 
right in front of their homes, so----
    Senator Begich. I understand, where they cannot get to 
their home because they have four feet of snow----
    Mr. Geldart. Right.
    Senator Begich. But just a thought. And if it is worthwhile 
and your Snow Czar or you think it is of value, please let me 
know----
    Mr. Geldart. Yes, sir.
    Senator Begich [continuing]. And I would be happy to 
followup. It is always--literally, I walked past them. I 
thought, my God, there is a lot of real State there that is 
sitting there. And I, of course, was thinking, well, it is 
Federal jurisdiction. They probably cannot touch them. And yet 
they are fenced off and locked down. It makes no sense. So just 
a little food for thought.
    Mr. Geldart. Yes, sir.
    Senator Begich. Let me, if I can, go to a couple, and 
Barbara, you had mentioned this, and all of you kind of 
mentioned this, but what do you think in regards to the Federal 
grants that we are issuing, and you noted one that is a 
concern. We just had a hearing on Federal grants and how that 
is working. Any of you could really answer this, but I know in 
some of your testimony, you talked a little bit about it.
    But do you think the grants are successful? Are we or you 
measuring them in a way that we can really determine, these 
grants are working? As you know, there is criticism from some 
of my colleagues that we give these grants, we do not know what 
the results are, and they want more. Do you think we have--and, 
really, anyone could answer this--the right tools in place, or 
should we look at some additional tools to determine the 
effectiveness of the multiple grants that we give out. Even 
though it is a diminishing amount, and I recognize that, is 
there something we could do better here from FEMA or 
partnership with the stakeholders on this?
    Ms. Donnellan. It is interesting. We have spent the last 
couple years at COG trying to really figure out what is the 
right thing to be spending money on and how this grant could be 
best utilized based on how we have used it in the last number 
of years. And this year, particularly, we did not fund 
everything that came through that was asked for in past years. 
We wanted more information and what is the data to justify 
certain things. And also, I have been having a conversation 
with my local counterparts to say, as Federal funds diminish, 
what really is sustainable that we must continue to have 
funding for that we may have to pick up if there is no Federal 
funds?
    The difficulty, though, is there is always going to be 
needs that have not been met yet----
    Senator Begich. Correct.
    Ms. Donnellan [continuing]. Such as cybersecurity or things 
like that we are beginning to embark on a little bit more----
    Senator Begich. Mm-hmm.
    Ms. Donnellan [continuing]. Which has to do with power 
grids and different things like that, as well.
    But one of the things that I think the Chief might talk to 
is--that FEMA could do, and you mentioned something earlier 
which I thought was interesting, was the mental health, kind of 
response to that. What would be helpful is if we could know 
what best practices are throughout the country that are really 
successful so that you can say, well, this Urban Area Security 
Initiative (UASI) fund really makes sense to use for these 
certain things, and that when we have success, like there are a 
number of things that we have done that we think are really 
credible and really would be helpful in instances, we can share 
that information.
    Or if there is something that is a total failure, why--no 
one tells us and says, well, that failed in three other cities. 
You should not do it. That would be helpful, as well.
    Senator Begich. So, FEMA kind of supplying kind of the best 
practice list.
    Ms. Donnellan. Yes.
    Senator Begich. Chief.
    Mr. Schwartz. Yes, Mr. Chairman. What I would say is what 
we have somewhat lost sight of is the fact that the original 
intent of these grants was not just to help resource local 
governments in service to their communities, but to create, 
really, a nationwide architecture of preparedness----
    Senator Begich. Right.
    Mr. Schwartz [continuing]. So that both vertically and 
horizontally, we were more connected in developing an adequate 
system of prevention, response, recovery.
    Senator Begich. Can I give you a thought there, just to 
interrupt you----
    Mr. Schwartz. Sure.
    Senator Begich. And that is, I am thinking of when I was 
mayor, my friend Martin O'Malley was mayor, and I remember when 
Hurricane Katrina happened, we could not--he had a heck of a 
time trying to get the coordination, because they wanted to 
bring supplies from Maryland down South and he just gave up and 
decided just to go do it, which I thought was great. And mayors 
did that.
    Mr. Schwartz. Right.
    Senator Begich. We just said, we could not--well, what is 
the best way to do this and how to create this, and that really 
did not exist then, a national----
    Mr. Schwartz. Well, in that particular instance, it was the 
Emergency Management Assistance Compact (EMAC) that people were 
trying to work through, and I give a lot of credit. EMAC has 
refined a lot of the obstacles that I think were----
    Senator Begich. Right, but that is part of the overall 
national architecture, is that right?
    Mr. Schwartz. It is certainly--yes. It is an 
acknowledgement that resources in Maryland may end up in 
Louisiana----
    Senator Begich. Right.
    Mr. Schwartz. Or resources in California need to go to 
Texas.
    Senator Begich. Right.
    Mr. Schwartz. But to Ms. Donnellan's point, the ability 
for, whether it is a UASI jurisdiction or just a State 
administering their statewide grant programs, to know what has 
been successful or what has not been so successful would be 
extremely useful. It would create much more efficiency. We 
might not be wasting money on very good efforts that we simply 
do not know have already been tried somewhere else.
    Senator Begich. Mm-hmm.
    Mr. Schwartz. I think as importantly, FEMA could identify 
some priorities, in consultation with the stakeholders, and 
incentivize through the grant programs--as an example, the 
patient tracking program that I talked about.
    Senator Begich. Yes, that is interesting.
    Mr. Schwartz [continuing]. To the best of my knowledge is 
fairly unique. Nobody else in the country has tackled this yet.
    Senator Begich. No, I was going to say, I am unfamiliar 
until you brought it up.
    Mr. Schwartz. And, quite frankly, we tried it once and it 
did not work. So we spent some money and did not get the 
results that we wanted. We went back, retooled it, and I think 
we have hit that sweet spot now. The ability of other 
jurisdictions to take what we have done, perhaps incentivized 
by FEMA--FEMA says, look, this grant cycle, we really want to--
we are going to earmark a portion of our grant money for people 
that pursue patient tracking projects, and here is an example 
of where it was example----
    Senator Begich. Got you.
    Mr. Schwartz [continuing]. Go talk to the National Capital 
Region, or something, a different kind of project that might 
have been created in another area of the country. Where does 
that information get shared and how do we really take advantage 
of what has been successful and, quite frankly, again, what has 
not panned out quite so successfully.
    Senator Begich. It is an interesting idea. I know when I 
participated as mayor to the U.S. Conference of Mayors that we 
shared a lot. Mayors will sit down, because we have to deal 
with this stuff. When I was mayor, there was no one else to go 
to. You were it.
    Mr. Schwartz. Yes. And do not get me wrong. There are a lot 
of professional groups that do share that information.
    Senator Begich. Yes, but FEMA seems like they could have a 
real role here, is what you are saying.
    Mr. Schwartz. Correct. Yes.
    Senator Begich. Kenneth, did I see you wanted to say 
something on that?
    Mr. Mallette. Yes, Mr. Chairman. One of the things that is 
probably going to be a challenge, as we have seen through a lot 
of, especially last year, the national-level exercise that FEMA 
sponsors, is this concept of mission ready packages----
    Senator Begich. Mm-hmm.
    Mr. Mallette [continuing]. So that these issues--so if a 
county or a city, and you as a former mayor want to send, or 
Governor O'Malley when he was a mayor of Baltimore City, hey, I 
want to send resources to Louisiana, have a mission ready 
package that is available that is prepackaged----
    Senator Begich. That they can just push right out the door.
    Mr. Mallette. And just goes, a package that includes not 
only the resources, but the stuff that first responders and 
myself, as a former first responder, do not want to deal with, 
is the administrative nightmare that goes with that. And so 
when you have this mission ready package, it is to produce 
resources, but it is the cost tracking of the resource so that 
we can then backtrack through the Emergency Management 
Assistance Compact to be able to ultimately pay for that.
    Senator Begich. Very good. Christopher, and I apologize, 
you are probably the last person to speak, only because our 
time is tight and I already am now again backed up, but go 
ahead.
    Mr. Geldart. I just wanted to----
    Senator Begich. Yes.
    Mr. Geldart [continuing]. Pick up on a little bit of what 
Jim said, because I think he is right on. The purpose of these 
grants really was to build that national capability. The 
Federal Government has capabilities to do certain things.
    Senator Begich. Right.
    Mr. Geldart. They do not have a Federal Fire Department. 
They do not have Federal teams that we are building at the 
State, and the State does not have the teams that we are 
building at the local level. It is just kind of the way the 
process works.
    So, looking at how do you measure the successful 
expenditure of these funds, or how do you look at it being 
successful going forward, I think that is really it. I mean, we 
are not running into anything new on the disaster front.
    Senator Begich. Mm-hmm.
    Mr. Geldart. You have a hurricane. You are getting flooded. 
You are getting wind and water.
    Senator Begich. Right.
    Mr. Geldart. If you have a terrorist attack----
    Senator Begich. It is pretty standard to know what you are 
begging.
    Mr. Geldart. You pretty much know the consequences of these 
things.
    Senator Begich. Yes.
    Mr. Geldart. So, looking at the measurement of the 
capability that has been built and which it can be shared 
nationally, I think, I would agree with Jim wholeheartedly with 
that. And EMAC is not the sole answer, because as a city, when 
New York City was going through its trials and tribulations 
with Hurricane Sandy, here I am a city and I have the mission 
ready packages put together and I know Joe Bruno up there, the 
Emergency Manager----
    Senator Begich. Right.
    Mr. Geldart [continuing]. And I am calling him and telling 
him, I want to send you this stuff, and I can send it to you. 
Just get your stuff through EMAC, because the District is the 
only major metropolitan area that is a signatory to EMAC.
    Senator Begich. Got you.
    Mr. Geldart. So I can send that. But if I need that from 
New York City, they cannot send to me. And until the State 
says, that team from inside New York City now is a State asset 
somehow, that is the only way they can EMAC that to me. That is 
why the Conference of Mayors is so on, how do I send stuff city 
to city?
    Senator Begich. Right.
    Mr. Geldart. And I was in Maryland when Mayor O'Malley sent 
stuff down to----
    Senator Begich. So you know that experience.
    Mr. Geldart. I was part of the State team that helped him 
get that EMAC mission to do it. So it is a problem that still 
exists out there, and we have come to John Madden, who is now 
the Chair----
    Senator Begich. Yes.
    Mr. Geldart [continuing]. Who is the President of NEMA----
    Senator Begich. From Alaska, yes.
    Mr. Geldart [continuing]. Who I am going to be out in your 
area with him next month.
    Senator Begich. Oh, good.
    Mr. Geldart. And we have talked to him about how do big 
cities help other big cities and not so big cities when things 
like this happen, because EMAC does not work for everybody.
    Senator Begich. Well, I would say this to all of you. I 
have some more questions, but I will probably send some of 
these to you. But I would be very anxious--the danger was for 
the Chairman of the full Committee to put a former mayor as 
Chairman of this Subcommittee, because I lived this for many 
years, and I will just throw one last idea, which I know some 
cities are doing.
    We worked an agreement with Home Depot, Sam's, Lowe's, for 
the first 72 hours. We gave them a Stock Keeping Unit (SKU) 
list, a list of product they cannot sell until we determine to 
release it, because what was happening, as you know, in 
disasters, people, oh my God, they go in and buy every piece of 
plywood that you might need. So we actually have a list, a 
predetermined pricing so there is no gouging or anything, but 
also a predetermined list, and as our first responders 
determine they do not need a certain product level, they let 
the Emergency Management Team know, of the private sector in 
our EOC, to cut those loose. We did this probably about 9 years 
ago, 10 years ago, and it has worked very well.
    One of the best parts of it is, as you know at the private 
sector, they keep an inventory better than anyone in the world. 
They know exactly where everything is at any time, where it is 
on the road. They have it GPS-ed all the way down. And we 
determined to use their warehousing capacity to supplement our 
work, and it did not cost us a dime. There were agreements we 
just signed as a community member. So there is no retention fee 
or any of that some people might think you have to have.
    And I think there is a lot of innovation out there. And you 
are right, we know what is coming, water, wind. We know. It is 
just what we do with the assets.
    And I think what we are going to try to do here is, with 
this Office, again, having this hearing, is to try to 
understand what their role should beg in a more expansive way, 
understanding they did not engage with stakeholders at the 
level they should have, and finding--and I like some of these 
ideas of what more can they do to make a difference for not 
just this region, but for the rest of the country in regards to 
emergency response. So your information, your testimony is 
helpful and I really appreciate that.
    We will keep the record open for 14 days. I will submit 
some additional questions, I hope you do not mind answering. It 
will be helpful for us.
    And you should not hesitate, as people in this region, that 
if you see areas that we could help, maybe the crazy parking 
lot idea I have or whatever it might be, you should not 
hesitate to let us know and we will do what we can, because for 
all the reasons you all stated in each one of your testimony, 
the amount of assets that we have here as a public, and as 
Congresswoman Norton said, I mean, it is an unbelievable place 
and we have to do everything we can, and it is a big court. I 
mean, when you described how many different communities and 
cities, I just was a mayor. Nineteen-hundred square miles was a 
lot, but we only had 300,000 people, so it was somewhat easier, 
and this is much more complicated with the layering that goes 
on. So, please do not hesitate to work with our Committee as 
you see ideas that we should be exploring with FEMA or just the 
regional efforts that we are doing.
    Thank you all very much for being here today. This meeting 
is adjourned.
    [Whereupon, at 4:12 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
